U.S. Department of Labor
Office of Inspector General

         Audit of the
    Unemployment Insurance
       Data Validation
        Pilot Program




                    U.S. Department of Labor
                    Office of Inspector General
                    Report Number 22-02-005-03-315
                    Date Issued: March 29, 2002
                                                                                    UI Data Validation Program Audit




                                          Table of Contents

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Audit Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Audit Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Audit Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

Best Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Appendix

         A. UIDV Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14




OIG Final Audit Report No. 22–02-005-03-315
                                                        UI Data Validation Program Audit




                                       Acronyms

ADP           Automatic Data Processing

BAM           Benefits Accuracy Measurement

BTQ           Benefits Timeliness and Quality

CAP           Corrective Action Plan

DOL           Department of Labor

ESC           Employment Service Center

GAO           General Accounting Office

GPRA          Government Performance and Results Act

MIS           Management Information System

OIG           Office of Inspector General

OMB           Office of Management and Budget

OWS           Office of Workforce Security

SESA          State Employment Security Agency

SQSP          State Quality Service Plan

SSA           Social Security Administration

SSN           Social Security Number

UI            Unemployment Insurance

UIDV          Unemployment Insurance Data Validation

UIRR          Unemployment Insurance Required Reports

WV            Workload Validation




OIG Final Audit Report No. 22–02-005-03-315                                            i
                                                                UI Data Validation Program Audit




                         In response to increasing demands for more accurate and meaning-
   Executive             ful program performance information, as well as past OIG concerns,
                         the Office of Workforce Security (OWS) developed the Unemploy-
   Summary               ment Insurance Data Validation (UIDV) program. This program,
                         planned for implementation at the State Employment Security
                         Agency (SESA) level, will strive to provide reasonable assurance
                         Unemployment Insurance (UI) program performance data provided
                         by the 53 reporting entities (50 United States, District of Columbia,
                         Puerto Rico, and the Virgin Islands) are reliable. Since policy and
                         decision makers throughout the Department as well as Congress
                         use performance data as a management tool, data reliability is
                         quintessential.

                         Our audit objective was to determine whether the management
                         controls had been designed at the OWS National Office and at the
                         state level ( for the three pilot study states) to provide reasonable
                         assurance that performance data are complete, recorded in the
                         proper period, and valued appropriately.

                         We assessed UIDV program management controls over manage-
                         ment assertions of completeness, occurrence, and valuation of
                         reported program performance. We determined that management
                         controls had been designed within the UIDV program to provide
                         reasonable assurance that reported program performance data meet
                         management assertions of completeness, occurrence, and valuation,
                         as it relates to the performance data contained in the 53 reporting
                         entities Management Information Systems (MIS). Also, tests of the
                         UIDV methodology performed at the Minnesota SESA disclosed
                         that Minnesota performance data used by the OWS National Office
                         for reporting of GPRA Goal 2.2 “Unemployed workers receive fair
                         Unemployment Insurance benefits eligibility determinations and
                         timely benefit payments” were properly reported to OWS.

                         We noted opportunities to improve the UIDV program. Three
                         findings, pertaining to written procedures, data validation fre-
                         quency, and documentation retention requirements, are discussed
                         in the Audit Findings section to this report.

                         In summary, our report recommends that OWS:

                         C      establish written procedures concerning the completeness of
                                performance reports;

                         C      validate UI program performance data annually, rather than
                                the current 3-year cycle; and



OIG Final Audit Report No. 22–02-005-03-315                                                      1
                                                               UI Data Validation Program Audit



                         C      require reporting entities to retain complete audit trails.

                         Management agreed with all findings and recommendations in this
                         report. The recommendations are resolved and open pending
                         receipt of documentation that corrective action has been imple-
                         mented.

                         Our audit also identified two “Best Practices” with respect to State-
                         level UI validation practices. Specifically, Minnesota’s use of Social
                         Security Administration (SSA) Death Match and Validation Query
                         procedures were noteworthy. They performed these verifications in
                         conjunction with the UI claim adjudication process, and in doing so,
                         reduced their vulnerability to processing fraudulent transactions. In
                         addition, North Carolina had streamlined data extraction proce-
                         dures to obtain detailed State UI Program Performance Data from
                         their State Management Information System. We identify these
                         practices in greater detail within the Best Practices section of this
                         report in hopes executive management can share them with other
                         UI end-users.

                         The Government Performance and Results Act of 1993 (GPRA) is
  Backgrou               intended to, among other things, (1) improve the confidence of the
  nd                     American people in the capability of the Federal Government, by
                         systematically holding Federal agencies accountable for achieving
                         program results; and (2) improve congressional decision-making by
                         providing more objective information on achieving statutory objec-
                         tives, and the relative effectiveness and efficiency of Federal pro-
                         grams and spending.

                         In order to allocate resources and oversee program effectiveness,
                         Congress requires sufficient, complete, accurate and consistent
                         program performance reporting. Congress understands a balance
                         must be struck between providing adequate and reliable program
                         performance information and costs necessary to obtain that informa-
                         tion. As a result, agencies must strive to implement the most cost-
                         effective means to provide Congress and other stakeholders with
                         accurate and reliable program performance information.

                         GPRA requires Federal agencies to describe in their annual program
                         performance plans how they will obtain and validate critical perfor-
                         mance data. The Office of Workforce Security (OWS) developed the
                         UI PERFORMS system to meet this requirement. Through UI
                         PERFORMS, OWS can validate data used in their strategic planning
                         process.




OIG Final Audit Report No. 22–02-005-03-315                                                       2
                                                               UI Data Validation Program Audit


                         UI PERFORMS is an “umbrella” performance measurement system
                         designed to continuously monitor the performance of Unemploy-
                         ment Insurance (UI) program activities as reported by the states.
                         Through UI PERFORMS, OWS seeks to establish clear program
                         performance priorities, and introduce information-based planning
                         for improved program performance. A key to the effectiveness of
                         the UI PERFORMS system is the validity of the data obtained from
                         the 53 reporting entities. This data is used to assess program perfor-
                         mance.

                         Under the UI PERFORMS system, reporting entities submit UI
                         program data to OWS on a monthly and quarterly basis through a
                         series of Unemployment Insurance Required Reports (UIRR). The
                         submitted data consists of approximately 2,400 UI program perfor-
                         mance data elements contained in 47 reports. The UI program
                         performance data submitted via the UIRR captures an array of
                         performance information. Examples of how reported data is used
                         for “output product purposes” include economic statistics, allocat-
                         ing UI administrative funding to states based on workload, measur-
                         ing state claimant eligibility criteria and performance in providing
                         benefits, and accounting for UI trust fund utilization. Additionally,
                         the UI program performance data provided by the states is used in
                         the compilation of UI program performance measures under GPRA,
                         specifically, Department of Labor (DOL) performance goal 2.2A
                         (Unemployed workers receive fair Unemployment Insurance benefit
                         eligibility determinations and timely benefit payments).

                         Initially, OWS utilized its existing Workload Validation (WV) pro-
                         gram as the means to satisfy data validation and verification re-
                         quirements, mandatory GPRA components. The Workload Valida-
                         tion program was designed to validate workload data used to
                         formulate and allocate the UI administrative budget among the
                         states. To accomplish this, the WV program validated 29 UI pro-
                         gram performance data elements on four UIRR reports. This pro-
                         cess reviewed about one percent of the 2,400 data elements reported
                         by State Employment Security Agencies (SESAs) into the UIRR
                         process.

                         The extent to which the Workload Validation program provided a
                         satisfactory level of validation over individual UI program perfor-
                         mance data elements and UIRR report coverage was challenged in
                         OIG Report Number 03-93-034-03-315, dated September 29, 1993.
                         We recommended the Office of Workforce Security: (1) include data
                         elements associated with each of the existing and proposed perfor-
                         mance measures in its data validation effort; (2) review validation
                         methods for all other data elements contained on UIRR reports; and
                         (3) increase the validation period from one month for quantity and
                         one quarter for quality to an entire year.

                         In response to our recommendations, OWS developed the Unem-

OIG Final Audit Report No. 22–02-005-03-315                                                       3
                                                                  UI Data Validation Program Audit


                         ployment Insurance Data Validation (UIDV) program.
                         UIDV increases the number of UI program performance data ele-
                         ments that are validated. Specifically, UIDV was designed to vali-
                         date 1,216 of the 2,400 data elements (51 percent) contained in 20 of
                         the 47 UIRR reports (43 percent) submitted by the 53 reporting
                         entities. This compares with the validation of 29 UI program perfor-
                         mance data elements (1 percent) contained in 4 UIRR reports (9
                         percent) as was accomplished under the Workload Validation
                         program.

                         In November 1997, OWS began a pilot study at three SESAs - Mas-
                         sachusetts, Minnesota and North Carolina. The pilot study was
                         performed to assess the UIDV validation methodology in an
                         operating-level (SESA) environment. The OWS pilot study report
                         stated “Pilot States reported that the system is valid, accurate, efficient
                         and more comprehensive than prior validation systems they have used.”

                         In December 2001, OWS received OMB final clearance for its pro-
                         posed data collection activities necessary to administer its UIDV
                         program. This clearance is a statutory requirement under the
                         Paperwork Reduction Act of 1995, and OMB approved the UIDV
                         program, and established an implementation period not to exceed
                         December 31, 2004. OWS plans full UIDV implementation in all
                         state workforce agencies during FY 2003.


                         Our audit objective was to determine whether management controls
                         had been designed at the OWS National Office and at the state level
   Objective             (for the three pilot study states) to provide reasonable assurance
                         that performance data are complete, recorded in the proper period,
       and
                         and valued appropriately.
      Scope
                         UIDV is designed to determine whether state level data was “re-
                         ported correctly,” and is not intended to assess source data accu-
                         racy. Accordingly, we did not review the accuracy of state level
                         source data.

                         While the UIDV program methodology provides for the validation
                         of UI benefits and UI tax administration data, our audit excluded
                         the tax administration component of the UIDV methodology.

                         Our audit of OWS’ proposed UIDV program was conducted in
                         accordance with Government Auditing Standards issued by the
                         Comptroller General of the United States. The audit was performed
                         during the period April 25, 2001 through October 5, 2001, and
                         covered calendar years 1997-2001 UIDV documentation.

                          Our fieldwork primarily consisted of conducting interviews with
                         OWS management and staff, and reviewing documentation relating
                         to OWS’ accounting for UIRR reports submitted by the 53 reporting

OIG Final Audit Report No. 22–02-005-03-315                                                            4
                                                              UI Data Validation Program Audit



                         entities.
    Audit
  Methodol               We interviewed National and state key personnel and assessed
  ogy                    UIDV program management controls over management assertions
                         of completeness, occurrence, and valuation of reported program
                         performance data. Through these interviews and observations, we
                         identified control techniques used to achieve each management
                         control objective.

                         We conducted site visits at two of the three SESAs that participated
                         in the 1997-1998 UIDV pilot validation (North Carolina and Minne-
                         sota), and conducted telephone interviews with the third SESA
                         (Massachusetts). Our fieldwork at the North Carolina and Minne-
                         sota SESAs was conducted during the period April 30 through June
                         15, 2001, and primarily consisted of conducting interviews with
                         management and staff, and reviewing available documentation
                         supporting the 1997-1998 pilot validation. At the Minnesota SESA,
                         we also tested the UIDV validation methodology using March 2001
                         performance data. This data, used in UIRR National Office report-
                         ing, were examined to determine whether Minnesota’s input for
                         GPRA goal 2.2 was reliable. We conducted a telephone interview
                         with Massachusetts SESA management and staff on August 14,
                         2001.

                         Tests of the UIDV methodology were performed at the Minnesota
                         SESA to determine whether performance data used by the OWS
                         National Office for reporting of GPRA Goal 2.2 “Unemployed
                         workers receive fair Unemployment Insurance benefits eligibility
                         determinations and timely benefit payments” were properly re-
                         ported based on data contained in the Minnesota MIS.

                         Additionally, we performed fieldwork at the Raleigh, North
                         Carolina, Employment Service Center (ESC), and St. Cloud, Minne-
                         sota, Data Center. Our fieldwork at the Raleigh ESC and St. Cloud
                         Data Center consisted of conducting interviews with management
                         and staff, and was conducted during the period April 30 through
                         June 15, 2001.

                         We assessed UIDV program management controls over manage-
                         ment assertions of completeness, occurrence, and valuation of
                         reported program performance data. We determined that manage-
                         ment controls had been designed within the UIDV program to
                         provide reasonable assurance that reported program performance
      Audit              data meet management assertions of completeness, occurrence, and
     Results             valuation as it relates to the performance data contained in the 53
                         reporting entities MIS. Also, tests of the UIDV methodology per-
                         formed at the Minnesota SESA disclosed that Minnesota perfor-
                         mance data used by the OWS National Office for reporting of GPRA


OIG Final Audit Report No. 22–02-005-03-315                                                     5
                                                               UI Data Validation Program Audit



                         Goal 2.2 “Unemployed workers receive fair Unemployment Insur-
                         ance benefits eligibility determinations and timely benefit
                         payments” were properly reported to OWS.

                         We noted opportunities to improve the UIDV program. Three
                         findings, pertaining to written procedures, data validation fre-
                         quency, and documentation retention requirements, are discussed
                         in the Audit Findings section to this report.


                         Completeness

                         Control Objective 1:
                         To ensure that each UIRR report from the 53 reporting entities is
                         obtained monthly or quarterly (depending on the nature of the
                         report) by OWS.

                         Control Techniques:
                         The states must submit the various required reports to OWS
                         monthly or quarterly depending on the type of reports. OWS,
                         National Office, Data Analysis and Validation team runs delin-
                         quency reports the first business day of each month. A listing of
                         delinquent reports, including any of the 24 required reports, is
                         generated on a regional basis and provided to each Regional Office.

                         The Regional Offices are responsible for monitoring the states’
                         activities and reporting and following up with the states on delin-
                         quency issues raised by OWS. The Regional Office serves as the
                         first contact regarding delinquent reports. However, OWS provides
                         additional enforcement pertaining to the delinquent reports.

                         If a state has been delinquent, the National Office follows up with
                         the state in an attempt to resolve the problems. If a state is chroni-
                         cally delinquent in providing its data, OWS’ State Quality Service
                         Plan (SQSP) policy requires the state to complete and submit Cor-
                         rective Action Plans (CAPs) for reporting deficiencies. Reporting
                         deficiencies are consistent failures to timely or accurately submit
                         any Federally-required reports. Once the states submit CAPs, both
                         the Regional Offices and National Office review the CAPs to ensure
                         proposed actions will resolve reporting deficiencies identified.

                         Control Objective 2:
                         To ensure that the summarization of data reported by the states to
                         OWS contained in National Office performance reports is materially
                         complete.

                         Control Techniques:
                         The National Office uploads the States’ data to the National Office’s
                         UI database via the SUN system. States’ data are retrieved from


OIG Final Audit Report No. 22–02-005-03-315                                                       6
                                                               UI Data Validation Program Audit



                         the database based on various queries and pre-written extracts.
                         The National Office’s performance reports are generated based on
                         the queries. The National Office uses the performance data to
                         generate the “State Performance Ranking in UI System” Report
                         which serves as a management tool to inform management and
                         decision makers of the status of the states’ performance. If a state’s
                         data are unavailable, the performance report would indicate the
                         unavailability of the data with the code INA (information not avail-
                         able).

                         Before generating the National Office performance reports, OWS
                         reviews the data for consistency and reasonableness and follows up
                         if data seem to be “out of range.” The nature of the measure deter-
                         mines the materiality of any state’s omission. For example, when
                         reviewing the national percentage of first payment timeliness,
                         Puerto Rico and the Virgin Islands could be considered immaterial
                         because they account for a small percentage of UI workload. How-
                         ever, if the measure is the number of states meeting the Secretary’s
                         Standard of 87 percent of first payments within 14/21 days, the
                         absence of three states’ data would be material, because with this
                         measure all states are equal. Therefore, failure to report is treated
                         by OWS as failure to attain the standard.


                         Occurrence

                         Control Objective 3:
                         To ensure that only data reported by the states as having occurred
                         during the reporting period is contained in National Office perfor-
                         mance reports.

                         Control Techniques:
                         Every transaction record in the UI database has a “rptdate” field,
                         which is the date that the transaction actually occurred. This field is
                         used for selecting records from the database for the appropriate
                         reporting period. For example, to select data corresponding to the
                         calendar year 2000, OWS would select a range of “rpt. dates” be-
                         tween January 1, 2000 and December 31, 2000, in the UI database.

                         Control Objective 4:
                         To ensure the statistics reported to OWS represent transactions that
                         occurred during the current reporting period.

                         Control Techniques:
                         Each transaction record contains a field for the date of entry and the
                         compensable week ending date. The staff extract data transactions
                         by entering the corresponding dates for the reports. Only transac-
                         tions processed during requested dates are reported in the reports.



OIG Final Audit Report No. 22–02-005-03-315                                                        7
                                                               UI Data Validation Program Audit



                         Valuation

                         Control Objective 5:
                         To ensure that the UI data reported to OWS agrees with the state’s
                         UI database.

                         Control Techniques:
                         To ensure that the states’ UI data are accurately and consistently
                         summarized in the various UIRR reports, OWS’ contractor,
                         Mathematica, provides the states’ ADP staff with spreadsheets and
                         instructions for proper classification and reporting of transactions
                         for validation via the UIDV process. Once the ADP staff completes
                         the data extract program file and provides the validator with vari-
                         ous population extractions, the validator performs a report count
                         validation and an individual transaction validation. In the report
                         count validation, the UIDV provides an independent count of the
                         report cells. The states compare the UIDV counts/results to the
                         reported counts from the UIRR previously submitted to OWS. The
                         reports pass the validation if the differences, if applicable, are less
                         than the 2 percent tolerance rate. However, if the differences exceed
                         the tolerance rate, the state must complete a CAP detailing the
                         procedures the State will take to correct the problem. To verify the
                         accuracy of individual UI data transactions, the validator performs
                         an individual transaction validation by obtaining a sample of the
                         specified transactions reported as an aggregate count.

                         The UIDV process verifies the edit checks used for the reports
                         generated by the states’ MIS. In addition, the UIDV process pro-
                         vides additional edit checks to test the reasonableness of the counts
                         reported on the UIRR. During the transmission of states’ UI data
                         to the National Office’s UI database via the SUN system, the data
                         are subject to a series of edit checks before transmission is com-
                         pleted. There are three types of edit checks: fatal, error and warn-
                         ing. The fatal and error edit checks prevent the completion of the
                         data transmission. The warning edit checks warns the operator of a
                         possible mistake but does not prevent the transmission of the data.
                         The ADP staff reviews the edit checks prior to downloading the
                         states’ UI data to the National Office’s UI database.

                         In Minnesota, the Research and Statistics Unit provides additional
                         assurance that the UI data is accurate. The unit has a statistical
                         system that provides detailed information on the individual transac-
                         tions. The system allows the Statistics unit to categorize the UI
                         information for other state reporting purposes such as to gain the
                         overall state unemployment rate. The team leader performs a
                         reconciliation between the state UI database and the statistical
                         system to verify the accuracy of the information.




OIG Final Audit Report No. 22–02-005-03-315                                                        8
                                                               UI Data Validation Program Audit



                         The UI data collected in Minnesota’s MIS is subject to a series of edit
                         checks for accuracy and reasonableness. The edit checks include
                         check digit, reasonableness test and verifying the claimants’ social
                         security numbers. New claims are entered into the state’s UI
                         database on a daily basis. These transactions are written to tape.
                         The transactions are compiled on a weekly and monthly basis. An
                         interface exists between the state’s UI database and the statistical
                         system. The interface carries the transactions to the statistical
                         system. The team leader crosschecks the system to ensure that the
                         interface had transferred the transactions correctly. The system is
                         used to crosscheck the information as to what should be reported to
                         OWS.

                         Minnesota’s Research and Statistics Unit first prepares required
                         reports manually. After two levels of supervisory review are com-
                         pleted, the reports are transmitted to OWS. The team leader re-
                         views a copy of the transmitted report to ensure that no keying
                         errors occurred. The unit also has report instructions to ensure the
                         correct information is placed in the correct reporting cells.




                         1. Lack of Written Procedures Concerning Completeness of Data

                         Management controls should be designed and placed in operation
     Audit               to provide reasonable assurance that program performance data are
   Findings              complete, accurate and consistent. OWS’ reporting processes do not
                         meet certain management controls standards established by the
                         Office of Management and Budget (OMB) Circular A-123, Manage-
                         ment Accountability and Control, revised June 21, 1995. The circu-
                         lar defines management controls as “the organization, policies and
                         procedures used by agencies to reasonably ensure that reliable and
                         timely information is obtained, maintained, reported and used for
                         decision making.” Specific management controls standards for
                         recording and documenting includes “documentation for transac-
                         tions, management controls and other significant events must be
                         clear and readily available for examination.”

                         Specifically, written policies and procedures related to compilation
                         of reports and summarization of data used for reporting UI perfor-
                         mance measures did not exist at the National Office. For example,
                         OWS does not have a written procedure to determine if the data
                         used in the performance reporting were materially complete. The
                         agency planned to make subjective judgments regarding the materi-
                         ality of the omission of states’ data. Therefore, there was no assur-
                         ance that such judgment would be consistently and accurately
                         applied.



OIG Final Audit Report No. 22–02-005-03-315                                                        9
                                                              UI Data Validation Program Audit



                          Conversely, the UIDV methodology and validation procedures
                         prepared by the National Office for each reporting entity to follow
                         are well documented. Documentation of policy and procedures
                         would enhance the overall success of the UIDV program and ensure
                         compliance with OMB Circular A-123 .

                         Recommendation:

                         We recommend that the Assistant Secretary for Employment and
                         Training require OWS to establish written procedures concerning
                         completeness of performance reports. The procedures should detail
                         how to determine if reported data is not materially complete and
                         what to do in those circumstances.

                         Management’s Response:

                         ETA accepts the OIG recommendations that it establish written
                         procedures to help ensure completeness of performance reports.
                         ETA will devise and document a cost-effective mechanism to (1)
                         identify incomplete data used in performance measures and (2)
                         inform primary report users of report incompleteness. These steps
                         will be guided by the Circular A-123 management control principle
                         that resources be used consistent with agency mission.

                         OIG’s Conclusion:

                         This recommendation is resolved and open. To close, ETA should
                         provide documentation that procedures have been established and
                         implemented.

                         2. Frequency of Validation Under the UIDV Program

                         Through its implementation of GPRA, Congress has identified the
                         need to receive timely, complete, and accurate program perfor-
                         mance information to help guide its decision-making process with
                         regard to the allocation of resources and oversight of program
                         activities.



                         The proposed UIDV validation schedule (also referred to as the 3-
                         year cycle) requires, with some exceptions, that states perform a
                         validation of UI program performance data once every 3 years. This
                         frequency of validation will not ensure that UI program perfor-
                         mance data used in the compilation of DOL performance goals is
                         validated each year that it is reported. DOL performance goals,
                         specifically performance goal 2.2A (Unemployed workers receive fair
                         Unemployment Insurance benefit eligibility determinations and timely
                         benefit payments), are reported to Congress and other interested


OIG Final Audit Report No. 22–02-005-03-315                                                  10
                                                              UI Data Validation Program Audit


                         stakeholders of DOL in the Annual Accountability Report.

                         By requiring states to annually validate UI program performance
                         data that support DOL’s annual performance goals, in this instance
                         performance goal 2.2A, OWS management would be providing
                         validated program performance data to Congress annually.

                         Recommendation:

                         We recommend that the Assistant Secretary for Employment and
                         Training require OWS to validate UI program performance data,
                         which directly supports DOL performance goals (e.g., performance
                         goal 2.2A), annually rather than every 3 years as currently required
                         under the UIDV protocol.

                         Management’s Response:

                         ETA accepts the OIG recommendation to validate the UI program
                         performance data that directly support DOL performance goals for
                         UI (Goal 2.2a) annually instead of every three years. However, we
                         would note that although ETA can require the states to validate the
                         data used for key GPRA measures annually, we do not expect to see
                         this occur nationwide until about FY 2005, because of our expecta-
                         tion of the speed with which UIDV will be implemented. UIPL #14-
                         02, issued on 02/22/02, requires state workforce agencies to imple-
                         ment UIDV fully by July 31, 2003. A full validation would involve
                         complete validation of both benefits and tax performance data. We
                         believe that some state agencies will meet this deadline while others
                         will still be in the process of implementing the new validation
                         program. Some state agencies will not pass all validation items
                         initially and may require additional time to correct programming
                         problems in FY 2004.

                         We also note that the Department’s UI GPRA goals have changed
                         since the UIDV audit was performed. Of particular relevance to
                         UIDV, the goal of making fair unemployment insurance benefit
                         eligibility determinations has been replaced with setting up UI tax
                         accounts timely. Therefore, data for the timeliness of new status
                         determinations will be validated annually, along with the timeliness
                         of first payments. There are two other UI goals; the measures are
                         now under development.
                          Both measures will be based on the Benefit Accuracy Measurement
                         system, which has its own validation mechanism separate from
                         UIDV.

                         OIG’s Conclusion:

                         This recommendation is resolved and open. To close, ETA should
                         provide documentation that a significant number of state workforce
                         agencies have implemented UIDV and are performing annual

OIG Final Audit Report No. 22–02-005-03-315                                                     11
                                                                UI Data Validation Program Audit


                         validation of UI program performance data that support DOL
                         performance goals.

                         3. Retention of UIDV Audit Trails by Reporting Entities

                         During our audit of the UIDV program, we found that the three
                         participating pilot states had retained various components of the
                         validation audit trail, however, none had retained complete audit
                         trails documenting the pilot validation.

                         The UIDV audit trail consists of: (1) detailed data extracts of the
                         populations subject to validation under UIDV (either electronic
                         record or hard copy); (2) validation worksheets documenting the
                         actual validation process as performed by state validators; and (3)
                         summary spreadsheets provided to the states by OWS for the
                         purpose of summarizing and quantifying the validation results.

                         While retention of an audit trail was not a condition of the 1997-1998
                         pilot, the lack of a complete audit trail hindered our ability to assess
                         controls in place over the validations conducted by the pilot study
                         states. Once UIDV is implemented, complete audit trails will be
                         necessary to perform internal (OWS) and external (OIG/GAO)
                         evaluations of the effectiveness of the UIDV validation program.

                         Recommendation:

                         We recommend that the Assistant Secretary for Employment and
                         Training ensure OWS requires reporting entities to retain complete
                         UIDV audit trails for not less than 3 years following the end of the
                         calendar year in which the validation was performed.

                         Management’s Response:

                         During the three-state-pilot UIDV program, DOL was testing the
                         methodology for validation; thus no significant audit trail was
                         required beyond the submission of final reports for the contractor.
                         We realize that in operating the UIDV program an audit trail will be
                         necessary to ensure proper validation procedures. We concur with
                         the OIG recommendation to require state agencies to maintain
                         validation audit trails for a minimum of three years following the
                         end of the calendar year in which such validation are conducted.

                         OIG’s Conclusion:

                         This recommendation is resolved and open. To close, ETA should
                         provide documentation of the requirement to retain complete UIDV
                         audit trails.




OIG Final Audit Report No. 22–02-005-03-315                                                     12
                                                                UI Data Validation Program Audit



                         In performing our audit of UIDV, we identified activities at the state
                         level which can be classified as “Best Practices” due to the added
     Best                value they represent in terms of administering the UIDV program,
   Practices             or the UI program in general. The two “Best Practices” we identi-
                         fied follow.

                          1. Social Security Administration (SSA) Death Match and Valid-
                         ity Check

                         During our site visit to the Minnesota SESA we found that, in the
                         normal course of the UI claims adjudication process, an SSA death
                         match and an SSN validation check are run against each applicant.
                         This significantly reduces the likelihood that fraudulent UI claims
                         are made through the use of unissued SSNs or by using the SSNs of
                         deceased persons.

                         By encouraging all states to incorporate a similar death match and
                         validity check in their UI claims adjudication process, the number of
                         UI over payments could be significantly decreased.

                         2. Detailed Data Extracts of State UI Program Performance Data

                         In performing the detailed data extraction of state UI program
                         performance data in conjunction with UIDV, each reporting entity
                         must create a detailed data record extraction file program. This
                         program identifies and extracts the 14 populations and their corre-
                         sponding sub-populations of UI data subject to validation.

                         At the North Carolina SESA, State MIS staff created the detailed
                         record extraction file containing the 14 populations individually
                         along with their corresponding sub-populations. This method of
                         data extraction facilitated the retrieval of a specific population and
                         its corresponding sub-populations “on demand.”

                         In comparison, the data extraction process utilized by the Minnesota
                         SESA consisted of compiling the 14 populations in the aggregate.
                         Consequently, in order to retrieve a specific population, the validat-
                         or must identify a beginning and ending “observation number”
                         assigned to each population by the MIS staff. The randomly accessi-
                         ble series of populations available to the North Carolina SESA
                         resulted in a more streamlined validation process when compared
                         to Minnesota.




OIG Final Audit Report No. 22–02-005-03-315                                                       13
                                                                 UI Data Validation Program Audit


                                                                              APPENDIX A

                         Each of the 53 reporting entities may employ a different methodol-
     UIDV                ogy to prepare the various UIRR reports which are submitted to
                         OWS for the purpose of communicating UI program performance
   Overview              data. However, the validation methodology employed under the
                         UIDV program is consistent across each of the reporting entities.
                         States compare UI program performance data per the respective
                         UIRR reports submitted to OWS against reconstructed cell counts
                         from state management information systems (MIS). This is done
                         regardless of whether UIRR reports are produced directly from a
                         state benefit database, a database extract or statistical file, or from a
                         combination of these sources. The UIDV methodology reconstructs,
                         for each UIRR item to be validated, the count of transactions re-
                         ported during a specific period.

                         The UIDV program includes three principal benefit payment com-
                         ponents: (1) Report Item Validation [Module 1]; (2) Individual
                         Transaction Validation [Module 2]; and (3) state Specific Transaction
                         Validation Instructions [Module 3]

                         Report Item Validation – [Module 1] consists of three parts: (1) Cell
                         Count Reconstruction; (2) Duplicate Detection, and; (3) Time Lapse
                         Count.

                         Cell Count Reconstruction [Module 1.1] - The purpose of this phase of
                         the UIDV is to validate the accuracy of the counts reported in the
                         respective UIRR reports. Validators compare the counts in each
                         UIRR report cell with the count of its corresponding sub-popula-
                         tions from the state data extract. The Detailed Record Extraction
                         relies upon each state’s MIS component to identify and extract the
                         respective populations and sub-populations of UI program perfor-
                         mance data from each state’s UI database that is subject to valida-
                         tion under the UIDV methodology.

                         Duplicate Detection [Module 1.2] - The purpose of this phase of the
                         validation is to detect duplicate entries of transactions in the recon-
                         structed counts per the state data extract.

                         Time Lapse Count [Module 1.3] - The purpose of this phase of the
                         validation is to ensure that time lapse for certain UI program activi-
                         ties is reflected accurately (i.e., timely first payments).

                         Individual Transaction Validation - [Module 2] the state MIS staff
                         creates a validation worksheet according to Report Validation Specifi-
                         cations (found in Appendix A of the UIDV Handbook. The valida-
                         tion worksheet references the specific validation procedures identi-
                         fied in Module 3 (State Specific Validation Instructions).



OIG Final Audit Report No. 22–02-005-03-315                                                        14
                                                                 UI Data Validation Program Audit



                         State Specific Validation Instructions - [Module 3] provides detailed,
                         state specific validation procedures for the Individual Transaction
                         Validation phase of the UIDV program.




OIG Final Audit Report No. 22–02-005-03-315                                                       15
